   DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                       Office of Audit Services, Region VII
                                                                       601 East 12th Street, Room 0429
                                                                       Kansas City, MO 64106



July 18, 2011

Report Number: A-07-11-05012

Mr. Bruce Hughes
President and Chief Operating Officer
Palmetto GBA
P.O. Box 100134
Columbia, SC 29202-3134

Dear Mr. Hughes:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Fee-for-Service Payments Made by
Palmetto Government Benefit Administrators for Medicare Advantage Enrollees During
Calendar Years 2007 and 2008. We will forward a copy of this report to the HHS action official
noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Scott Englund, Audit Manager, at (573) 893-8338, extension 27, or
through email at Scott.Englund@oig.hhs.gov. Please refer to report number A-07-11-05012 in
all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Mr. Bruce Hughes


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL

      REVIEW OF MEDICARE
  FEE-FOR-SERVICE PAYMENTS
MADE BY PALMETTO GOVERNMENT
 BENEFIT ADMINISTRATORS FOR
MEDICARE ADVANTAGE ENROLLEES
   DURING CALENDAR YEARS
        2007 AND 2008




                       Daniel R. Levinson
                        Inspector General

                           July 2011
                         A-07-11-05012
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS), which administers the
program, contracts with Medicare contractors to process and pay Medicare claims submitted by
hospitals. The Medicare contractors use the Fiscal Intermediary Standard System and CMS’s
Common Working File (CWF) to process claims. The CWF can detect certain improper
payments during prepayment validation.

The Balanced Budget Act of 1997, P.L. No. 105-33, established Medicare Part C to offer
beneficiaries managed care options through the Medicare+Choice program. Section 201 of the
Medicare Prescription Drug, Improvement, and Modernization Act of 2003 revised Medicare
Part C. Among its changes, this law renamed the Medicare+Choice program the Medicare
Advantage program. Medicare Advantage organizations (MA organizations) receive capitation
payments from CMS to arrange and pay for all medically necessary services that are allowable in
the traditional Medicare fee-for-service (FFS) program. Under Medicare Part C, Medicare
beneficiaries may enroll in Medicare Advantage plans (MA plans) that are offered by MA
organizations.

Pursuant to Section 1886(d) of the Act, 42 CFR § 412.1(a) established the prospective payment
system (PPS) for Medicare inpatient hospital services. Under the PPS, Medicare contractors will
not make Medicare FFS payments for certain inpatient services, such as bed and board, nursing
services, and drugs, furnished to Medicare Advantage enrollees.

For inpatient claims, the status of the beneficiary’s enrollment in an MA plan on the hospital
admission date determines whether the MA organization or the Medicare contractor has payment
responsibility. MA organizations have payment responsibility for claims with services that
began on or after the Medicare Advantage enrollment date. Medicare contractors have payment
responsibility for claims with services that began before the Medicare Advantage enrollment
date.

Palmetto Government Benefit Administrators (Palmetto) was awarded the CMS Parts A and B
Medicare administrative contractors (MAC) Jurisdiction 1 contract on October 25, 2007. With
this award, Palmetto acquired United Government Services’ Part A business segment in
August 2008.

OBJECTIVE

Our objective was to determine whether Medicare FFS payments made by Palmetto to hospitals
for inpatient services furnished to Medicare Advantage enrollees complied with Federal
regulations.




                                               i
SUMMARY OF FINDINGS

Medicare FFS payments made by Palmetto to hospitals for inpatient services furnished to
Medicare Advantage enrollees did not always comply with Federal regulations. Palmetto made
$977,782 in unallowable payments for inpatient claims for beneficiaries who were enrolled in
MA plans.

Palmetto was not able to determine the beneficiaries’ enrollment status on the CWF at the time it
made these payments. Additionally, in each of these cases Palmetto did not receive an
Informational Unsolicited Response (IUR) from the CWF indicating that the beneficiary had
been retroactively enrolled in an MA plan.

We determined that at the time of the payments, controls were in place to verify the
beneficiaries’ enrollment status, and to promptly generate IURs in cases of retroactive
enrollments. These controls were adequate to stop improper FFS payments for services
furnished to the vast majority of Medicare Advantage enrollees.

Palmetto had not taken action on these 67 improper payments prior to our fieldwork.

RECOMMENDATIONS

We recommend that Palmetto:

   •   initiate overpayment recovery procedures to recoup and reimburse to the Federal
       Government $977,782 of improper payments from providers and

   •   generate an adjustment to update or cancel the claims in order to update both the CWF
       and the contractor history.

AUDITEE COMMENTS

In written comments on our draft report, Palmetto concurred with our recommendations and
described corrective actions that it had implemented. Palmetto’s comments are included in their
entirety as the Appendix.




                                                ii
                                                    TABLE OF CONTENTS

                                                                                                                                Page

INTRODUCTION..............................................................................................................1

    BACKGROUND ............................................................................................................1
       Medicare Contractors ...............................................................................................1
       Medicare Advantage Program .................................................................................1
       Claims for Inpatient Services ...................................................................................1
       Claims for Inpatient Services Provided to Medicare Advantage Enrollees .............2
       Retroactive Enrollment ............................................................................................2
       Palmetto Government Benefit Administrators.........................................................3

    OBJECTIVE, SCOPE, AND METHODOLOGY ..........................................................3
       Objective ..................................................................................................................3
       Scope ........................................................................................................................3
       Methodology ............................................................................................................3

FINDINGS AND RECOMMENDATIONS ....................................................................4

    FEDERAL REQUIREMENTS .......................................................................................5

    IMPROPER MEDICARE FEE-FOR-SERVICE PAYMENTS .....................................5

    RECOMMENDATIONS ................................................................................................5

    AUDITEE COMMENTS................................................................................................6

APPENDIX

    AUDITEE COMMENTS




                                                                      iii
                                              INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the
program.

Medicare Contractors

CMS contracts with Medicare contractors to, among other things, process and pay Medicare
claims submitted by hospital inpatient departments. 1 The Medicare contractors’ responsibilities
include determining reimbursement amounts, conducting reviews and audits, and safeguarding
against fraud and abuse. Federal guidance provides that Medicare contractors must maintain
adequate internal controls over automatic data processing systems to prevent increased program
costs and erroneous or delayed payments. To process hospitals’ inpatient claims, the Medicare
contractors use the Fiscal Intermediary Standard System and CMS’s Common Working File
(CWF) to process claims. The CWF can detect certain improper payments during prepayment
validation.

Medicare Advantage Program

The Balanced Budget Act of 1997, P.L. No. 105-33, established Medicare Part C to offer
beneficiaries managed care options through the Medicare+Choice program. Managed care
organizations include health maintenance organizations, preferred provider organizations,
provider-sponsored organizations, and private fee-for-service organizations. Section 201 of the
Medicare Prescription Drug, Improvement, and Modernization Act of 2003 revised Medicare
Part C. Among its changes, this law renamed the Medicare+Choice program the Medicare
Advantage program. Medicare Advantage organizations (MA organizations) receive capitation
payments from CMS to arrange and pay for all medically necessary services that are allowable in
the traditional Medicare fee-for-service (FFS) program. Under Medicare Part C, Medicare
beneficiaries may enroll in Medicare Advantage plans (MA plans) that are offered by MA
organizations.

Claims for Inpatient Services

Pursuant to Section 1886(d) of the Act, 42 CFR § 412(a)(1) established the prospective payment
system (PPS) for Medicare inpatient hospital services. Under the PPS, Medicare contractors will

1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For purposes of this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC,
whichever is applicable.



                                                         1
not make Medicare FFS payments for certain inpatient services, such as bed and board, nursing
services, and drugs, furnished to Medicare Advantage enrollees.

Claims for Inpatient Services Provided to Medicare Advantage Enrollees

CMS is responsible for ensuring that Medicare payments are made correctly. Weekly, MA
organizations transmit enrollment data to CMS, including information on when each Medicare
beneficiary enrolled and/or disenrolled in his or her MA plan. CMS maintains the enrollment
data on the Medicare Advantage Prescription Drug system (MARx), a system that is intended to
contain data on every Medicare beneficiary enrolled in an MA plan. CMS uses the enrollment
data on the MARx to update the enrollment data in the CWF, which is intended to contain
eligibility information for every Medicare beneficiary.

When hospitals submit claims for inpatient service, eligibility is verified through the CWF. If
the CWF indicates that the beneficiary is a member of an MA plan, the Medicare contractor
should deny the claim; however, there are some exceptions. For example, a provider may be
reimbursed on an FFS basis for a Medicare Advantage enrollee who elects hospice coverage or
who receives a service classified as a national coverage determination. 2 A provider may also be
reimbursed for direct graduate medical education costs, indirect medical education costs, and
services to Medicare beneficiaries in clinical trials.

For inpatient claims, the status of the beneficiary’s enrollment in an MA plan on the hospital
admission date determines whether the MA organization or the Medicare contractor has payment
responsibility. MA organizations have payment responsibility for claims with services that begin
on or after the Medicare Advantage enrollment date. Medicare contractors have payment
responsibility for claims with services that begin before the Medicare Advantage enrollment
date.

Retroactive Enrollment

A retroactive enrollment occurs when enrollment data are entered in the MARx after the
beneficiary’s actual enrollment date. For example, if a beneficiary enrolled in an MA plan on
January 1, 2007, but the enrollment data were not entered in the MARx until January 30, 2007,
the MARx would retroactively list the actual enrollment date as January 1, 2007. The actual
enrollment date should then be updated in the CWF.

The CWF generates an Informational Unsolicited Response (IUR) which provides the
identifying information regarding the claim submitted for a beneficiary retroactively enrolled in
an MA plan. The CWF electronically transmits the IUR to the Medicare contractor that
originally processed the claim.

Upon receipt of the IUR, the Medicare contractor must initiate overpayment recovery procedures
to retract the original Part A and Part B payments. The Medicare contractor must also generate


2
 A national coverage determination indicates coverage for a new service that was not included in the calculation of
the managed care capitation payment.


                                                         2
an adjustment to update or cancel the claim; this adjustment, in turn, updates both the CWF and
the contractor history.

Palmetto Government Benefit Administrators

Palmetto Government Benefit Administrators (Palmetto) was awarded the CMS Parts A and B
Medicare administrative contractors (MAC) Jurisdiction 1 contract on October 25, 2007. With
this award, Palmetto acquired United Government Services’ Part A business segment in
August 2008.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicare FFS payments made by Palmetto to hospitals
for inpatient services furnished to Medicare Advantage enrollees complied with Federal
regulations.

Scope

Our audit included FFS payments made by Palmetto and United Government Services for certain
inpatient services furnished to Medicare Advantage enrollees who were enrolled in MA plans
nationwide for at least 1 month during calendar years (CY) 2007 and 2008. We reviewed
internal controls to the extent necessary to accomplish the audit objective.

Methodology

To accomplish our objective, we:

   •    reviewed Federal regulations related to payment liability for Medicare beneficiaries
        enrolled in MA plans, as well as program manuals and memorandums, issued by CMS to
        Medicare contractors, that provided instructions on which claims to pay;

   •    used the Enrollment Database to identify beneficiaries enrolled in an MA plan during
        CY 2007;

   •    obtained inpatient claims data for CYs 2007 and 2008 from the National Claims History
        and Standard Analytical Files for those beneficiaries enrolled in MA plans;

   •    identified Medicare FFS inpatient claims for services that began on or after the date that
        the beneficiary enrolled in the MA plan and before the beneficiary disenrolled from the
        MA plan;

   •    eliminated paid claims for enrollees who elected hospice coverage before being admitted
        to the hospital;



                                                 3
   •   eliminated paid claims for graduate medical education costs, indirect medical education
       costs, and costs associated with clinical trials;

   •   verified, using information in the CWF, both the eligibility of the Medicare beneficiary
       and the accuracy of the payment amount, and ensured that the payment had not been
       cancelled;

   •   provided Palmetto with detail data regarding 98 claims totaling $1,404,296 that were
       potentially paid in error, and, after discussing the possible causes of claims that were
       potentially paid in error with Palmetto officials:

           o eliminated 10 improper payments totaling $104,630 that had been cancelled and
             recouped prior to the start of our fieldwork and

           o eliminated 21 payments totaling $321,884 that were properly paid; and

   •   discussed the results of our review with Palmetto officials and provided them with the
       details of the 67 claims for which we had identified improper payments.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Medicare FFS payments made by Palmetto to hospitals for inpatient services furnished to
Medicare Advantage enrollees did not always comply with Federal regulations. Palmetto made
$977,782 in unallowable payments for inpatient claims for beneficiaries who were enrolled in
MA plans.

Palmetto was not able to determine the beneficiaries’ enrollment status on the CWF at the time it
made these payments. Additionally, in each of these cases Palmetto did not receive an IUR from
the CWF indicating that the beneficiary had been retroactively enrolled in an MA plan.

We determined that at the time of the payments, controls were in place to verify the
beneficiaries’ enrollment status, and to promptly generate IURs in cases of retroactive
enrollments. These controls were adequate to stop improper FFS payments for services
furnished to the vast majority of Medicare Advantage enrollees.

Palmetto had not taken action on these 67 improper payments prior to our fieldwork.




                                                 4
FEDERAL REQUIREMENTS

Pursuant to 42 CFR § 412.20(e)(3), inpatient hospital services will not be paid on an FFS basis if
“[t]he services are paid for by an [MA organization] … that elects not to have CMS make
payments directly to a hospital for inpatient hospital services furnished to the [MA
organization’s] … Medicare enrollees….”

CMS’s manuals instruct hospitals and Medicare contractors about the payment liability for
inpatient services for Medicare Advantage enrollees. Section 408 of CMS’s Hospital Manual
states: “If you are a PPS hospital and the patient changes his [Medicare Advantage] status
during an inpatient stay, his status at admission determines liability. If he was enrolled in the
[MA organization] before admission, the [MA organization] is responsible regardless of whether
he disenrolled before discharge.” Section 3654.1 of CMS’s Medicare Intermediary Manual
instructs Medicare contractors to “… not make a duplicate payment for the same services [for
which] the [MA organization] has paid.”

IMPROPER MEDICARE FEE-FOR-SERVICE PAYMENTS

For CYs 2007 and 2008, Palmetto made 67 improper payments totaling $977,782 for inpatient
claims for beneficiaries who were enrolled in MA plans. For example, one payment for
$176,736 was made for an inpatient stay beginning on April 5, 2007, for a beneficiary who was
enrolled in an MA plan from March 1, 2007, to April 30, 2007.

Palmetto was not able to determine the beneficiaries’ enrollment status on the CWF at the time it
made these payments. Additionally, in each of these cases Palmetto did not receive an IUR from
the CWF indicating that the beneficiary had been retroactively enrolled in an MA plan. As a
result, Palmetto was unaware that the improper payments had been made. Therefore it did not
initiate overpayment recovery procedures to recoup the original payments, and it did not generate
an adjustment to update or cancel the claim in order to update both the CWF and the contractor
history.

We determined that at the time of the payments, controls were in place to verify the
beneficiaries’ enrollment status, and to promptly generate IURs in cases of retroactive
enrollments. These controls were adequate to stop improper FFS payments for services
furnished to the vast majority of Medicare Advantage enrollees.

Palmetto had not taken action on these 67 improper payments prior to our fieldwork.

RECOMMENDATIONS

We recommend that Palmetto:

   •   initiate overpayment recovery procedures to recoup and reimburse to the Federal
       Government $977,782 of improper payments from providers and




                                                5
   •   generate an adjustment to update or cancel the claims in order to update both the CWF
       and the contractor history.

AUDITEE COMMENTS

In written comments on our draft report, Palmetto concurred with our recommendations and
described corrective actions that it had implemented. Palmetto’s comments are included in their
entirety as the Appendix.




                                               6
APPENDIX
                                                                                                                     Page 1 of 2



                    APPENDIX: AUDITEE COMMENTS 




                Palmetto GBA. 	                                                                 Bruce W. Hughes
                                                                                 President and Chief Operating Officer
                    PARTNERS iN   EXCEU.ENCE~




July 12,2011



Mr. Patrick J. Cogley
Office ofInspector General
Office of Audit Services, Region VII
601 East 12th Street Room 0429
Kansas City, Missouri 64106

Reference: Report No. A-07-11-05012

DearMr. Cogley:

This letter is in response to the recent Office of Inspector General (OIG) report entitled"Review
of Medicare Payments Fee-jQr-Service Payments Made by Palmetto GBA for Medicare
Advantage Enrollees During Calendar years 2007 and 2008", addres$ed to Yvonna Ruff. We
appreciate the feedback your reView provided and are committed to continuously improving our
service to the Medicare beneficiaries and providers we serve.

As stated in the report, in September 2008 Palmetto GBA, LLC (palmetto) assumed full
responsibility as the MediqlI'e administrative co~tractor for Jurisdiction 1. The audit de~ned
that Palmetto made incorrect payments totaling $977,782 for beneficiaries enrolled in Medicare
Advantage Plans. As noted in the report, the payments were made because Palmetto was not
able to determine beneficiaries' enrollment status on the CWF at time the payments were made.

Palmetto GBA concurs with the following recommendations: .

   • 	 Initiate overpayment recovery procedures to recoup and reimburse to the Federal
       Government S977,782 lor improper payments from providers.

       Palmetto GBA Response:
       All claims identified in the audit have been initiated for recoupment and are scheduled for
       completion as early as July 13,2011.

   • 	 Generate anadJllstment to update or cancel the claims lIlorder to update bOtb .the
       CWF and the contractor history.

       Palmeno. GBA Response:
       Claims have been cancelled which will update both CWF and the contractor history.




                                                    I
                               _.PI!IlIIeltogbll.com PootOflk:e Box 100134
                                       ISO 80111 :2000 CcUnbia. SOUth Carolina 28202·3134
                                                                                                Page 2 of 2




Mr. Patrick J. Cogley
July 12,2011
Page 2



 Thank you for providing Palmetto GBA with the opportunity to provide feedback regarding your
 review. If you have any questions, please do not hesitate to contact me at (803) 763-7130 or
 Yvonna Ruff at (803) 763-5015.


                                             P  Sincerely                \ \

                                   ~AMUW. ~{}-

 cc: 	   Steven Smetak, COTR, CMS 

         Daniel Dion, eMS 

         Ann Archibald, Palmetto GBA 

         Mike Barlow, Palmetto GBA 

         Robin Spires, Palmetto GBA 

         Sheri Thompson, Palmetto GBA 





                                                   I
                              _.pallNItIOgba.ccm Poll 0fIIce Box 100134
                                     ISO 8001:2000 Columbia. SouIh caraIIIla 2i202-3134
